Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




     FDA WARNING LETTERS
      Trends and Perspectives




                   JUNE GIBBS BROWN
                    Inspector General

                      FEBRUARY 1999
                      OEI-09-97-00380
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's San Francisco Regional Office prepared this report under the direction of Kaye D. Kidwell,
Regional Inspector General, and Paul A. Gottlober, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

Brad Rollin, Project Leader                             Elise Stein, Program Specialist

Robert Gibbons, Program Analyst                         Barbara Tedesco, Mathematical Statistician

Scott Hutchison, Program Analyst

Don Loeb, Program Analyst

Steven Zerebecki, Program Analyst



     To obtain copies of this report, please call the San Francisco Regional Office at 415-437-7900.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                        EXECUTIVE                       SUMMARY


PURPOSE

         To determine (1) why the number of Food and Drug Administration (FDA) warning
         letters has decreased in recent years, (2) what accounts for variations in district office
         warning letters, and (3) how firms view the warning letter process.


BACKGROUND

         The FDA is the Federal agency charged with enforcing the Federal Food, Drug, and

         Cosmetic Act and related laws. At the headquarters level, FDA primarily is comprised of

         five centers and the Office of Regulatory Affairs. The Office of Regulatory Affairs

         coordinates compliance activities and oversees FDA’s 5 regional offices, 20 district

         offices, and 130 resident posts.


         The FDA's district offices and resident posts conduct almost all inspections of the firms

         that FDA regulates. When investigators find objectionable conditions, they are required to

         provide the firm with their findings using form FDA-483. If violations uncovered during

         an inspection meet a threshold of “regulatory significance,” FDA also may issue a warning

         letter. Both FDA centers and district offices issue warning letters, depending on the type

         of firm and violation. Some warning letters issued by the district office require

         headquarters review and approval. The warning letter generally represents FDA's first

         official notification that it has found one or more products, practices, processes, or other

         activities that are in violation of the Food, Drug, and Cosmetic Act. The warning letter

         affords firms the opportunity to voluntarily correct violations prior to the initiation of

         formal enforcement action.


         In fiscal year 1997, FDA issued 1,175 warning letters. This reversed a trend during which

         the number of warning letters decreased 36.2 percent from 1994 (1,626) to 

         1996 (1,037). District offices issue approximately 80 percent of all warning letters. The

         number of warning letters issued varies greatly, and concerns have been raised about this

         variation as well as the decrease in warning letters in general.


         We interviewed staff from FDA headquarters, all district offices, and 24 firms that

         received warning letters during fiscal year 1996. We also analyzed warning letter and

         district office inspection trends and data as well as FDA’s Regulatory Procedures Manual.





Warning Letters--Trends and Perspectives            1                                  OEI-09-97-00380
FINDINGS

Changes in FDA policies and practices and better industry compliance have
contributed to decreases in warning letters

         The FDA has fostered a more cooperative approach to industry compliance, permitting
         districts to find alternatives to warning letters. Other factors which contribute to the
         decrease include the reorganization of many districts and changes in the scope and type of
         inspections conducted by FDA. In addition, one-third of district offices believe that firms
         are themselves doing a better job of being in compliance.

Despite the existence of clear warning letter guidance, differences in district
office attitudes, experience, and the types of firms in the district affect warning
letter volume

         From 1994 to 1997, some district offices issued almost five times as many warning letters
         as others. While the staff size of the district offices has an obvious effect on the number of
         inspections and warning letters, other factors also affect the number of warning letters
         each district issues.

Firms would like to better understand the warning letter process and suggested
some minor changes

         The FDA’s policies and procedures governing warning letters are unclear to firms. When
         possible, firms would appreciate advance notice that a warning letter will be issued.

With some exceptions, firms were satisfied with FDA’s customer service during
the warning letter process

         Firms generally had positive comments about FDA investigators and district offices. Few
         firms contacted FDA headquarters, and customer service reviews were mixed.


RECOMMENDATION

The FDA should (1) continue to improve relations and communication with
industry and (2) consider issuing guidance that would authorize district offices to
use FDA-483s and meetings to achieve compliance in lieu of warning letters

         Further development of the FDA/industry relationship is important in preserving fairness.
         A firm should not suffer adverse consequences solely because it is located in a different
         district than another firm. At the same time, we recognize the need to allow district
         offices considerable discretion.

Warning Letters--Trends and Perspectives           2                                  OEI-09-97-00380
AGENCY COMMENTS

         We received comments on the draft report from FDA in which the agency concurred with
         our recommendation. Where appropriate, we have made revisions in the report in
         response to these comments. We also have responded to several of FDA’s comments in
         the appendix.



This report is one of two reports concerning FDA warning letters. A companion report,
“FDA Warning Letters: Timeliness and Effectiveness” (OEI-09-97-00381), determined how
FDA uses warning letters and the extent to which they result in timely compliance with Federal
laws and regulations.




Warning Letters--Trends and Perspectives       3                                OEI-09-97-00380
                          TABLE                        OF              CONTENTS

                                                                                                                               PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Reasons for decrease in warning letters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Differences among district offices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          Firms’ understanding of warning letters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          Firms’ views of FDA’s customer service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDICES


A:        Agency comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


B:        OIG response to agency comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24





Warning Letters--Trends and Perspectives                           4                                              OEI-09-97-00380
                                     INTRODUCTION

PURPOSE

         To determine (1) why the number of Food and Drug Administration (FDA) warning
         letters has decreased in recent years, (2) what accounts for variations in district office
         warning letters, and (3) how firms view the warning letter process.


BACKGROUND

The Food and Drug Administration

         The Food and Drug Administration (FDA) within the Department of Health and Human
         Services is the Federal agency charged with enforcing the Federal Food, Drug, and
         Cosmetic Act and several related laws. At the headquarters level, FDA primarily is
         comprised of five centers and the Office of Regulatory Affairs.1 The five centers are:

            <      Biologics Evaluation and Research
            <      Drug Evaluation and Research
            <      Devices and Radiological Health
            <      Food Safety and Applied Nutrition
            <      Veterinary Medicine

         Each center promulgates regulations, oversees the review and approval for the marketing
         of new products, develops policy and compliance standards for regulated industries, and
         undertakes other initiatives to ensure the safety and effectiveness of products under FDA's
         purview. The Office of Regulatory Affairs coordinates FDA's compliance activities and
         oversees the activities of FDA's 5 regional offices, 20 district offices, and approximately
         130 resident posts.

On-site Inspections

         Staff from FDA's district offices and resident posts conduct almost all inspections of the
         firms that FDA regulates.2 Section 702(a) of the Food, Drug, and Cosmetic Act
         authorizes FDA to conduct inspections to enforce the provisions of that statute as well as
         other applicable laws. Inspections focus on manufacturing, laboratory, production, and/or

  1
    The FDA also operates the National Center for Toxicological Research in Jefferson, Arkansas and the
Engineering and Analytical Center in Winchester, Massachusetts.
  2
     The FDA contracts with State agencies to conduct some inspections, and headquarters staff sometimes
participate in inspections of foreign or domestic firms.

Warning Letters--Trends and Perspectives               5                                     OEI-09-97-00380
         storage processes but may include examining a firm's administrative practices and controls
         as well as collecting samples, labels, and promotional materials.

         The FDA requires investigators to follow a standard protocol when conducting an
         inspection. Upon arriving at a facility, investigators issue a Notice of Inspection (Form
         FDA-482) to the top management official. The scope of the inspection generally is
         determined by the type of facility being inspected, the firm's history, general knowledge
         about the industry and its problems, and conditions found as the inspection progresses.

         Investigators are authorized to collect samples or other physical evidence while
         conducting inspections. Examples include food, drugs, devices, or cosmetics. Samples
         also may include evidence of violative conditions, such as rodent droppings or any other
         evidence of noncompliance with Federal laws and regulations.

         When investigators find objectionable conditions, they are required to provide the top
         management official with their findings on an Inspectional Observations form (Form FDA-
         483). The FDA-483 should include any observed problems with the facility, equipment,
         processes, controls, products, employee practices, or records. Some examples of
         reportable observations include:

           <       filthy, putrid, or decomposed substances, unsanitary conditions, or evidence of
                   contamination;
           <       careless handling of rodenticides or pesticides;
           <       results of field tests that reveal adulteration;
           <       observations of faulty manufacturing, processing, packaging, or holding of food,
                   drug, or device products as related to Good Manufacturing Practice regulations;3
                   and
           <       observations indicating noncompliance with medical device reporting
                   requirements.

         Some observations require that action be taken by the centers only. The FDA's
         Investigations Operations Manual instructs investigators to not report observations related
         to most labeling issues, promotional materials, the classification of a cosmetic or device as
         a drug, or the classification of a drug as a new drug on the FDA-483. These issues are
         referred to the centers for compliance action.




  3
     The Good Manufacturing Practice regulations specify FDA's expectations as to how firms should operate in
manufacturing products regulated by the FDA. The regulation includes provisions related to personnel, quality
control, facility design and maintenance, equipment, internal controls, production and process controls, packaging
and labeling, storage and distribution, laboratory process, and reports and record keeping.

Warning Letters--Trends and Perspectives                6                                       OEI-09-97-00380
Warning Letters

         What is a warning letter? The warning letter generally represents FDA's first official
         notification to a firm or individual that FDA has found that one or more products,
         practices, processes, or other activities are in violation of the Food, Drug, and Cosmetic
         Act. The warning letter affords firms the opportunity to voluntarily take corrective action
         prior to the initiation of formal enforcement action.

         The FDA is not required by law to warn firms or individuals that they are in violation of
         the law prior to initiating a formal regulatory action.4 The FDA believes, however, that:

                   ...documentation of notice of violative conduct strengthens the agency's
                   position in regulatory actions by establishing that responsible individuals
                   continued violative conduct despite warnings by the agency.5

         Who issues warning letters? The FDA centers and district offices issue warning letters.
         In general, district offices issue warning letters to domestic firms based on inspections.
         Some centers issue warning letters for advertising and promotional violations or to foreign
         firms marketing products in the United States. Others, such as the Center for Veterinary
         Medicine, issue few or no warning letters at all.

         At the district office level, although some warning letters can be issued at the discretion of
         the district director without center or other headquarters review or concurrence, FDA's
         Regulatory Procedures Manual lists numerous specific program area violations that
         require review by the appropriate center. Centers are required to review and approve the
         issuance of warning letters within 15 days of receipt. Despite this layer of review, the
         decision to initiate the warning letter process rests solely with the office that conducted
         the inspection.

         The following table illustrates how many warning letters the centers and district offices
         issued from fiscal years 1994 to 1997. The district office tally includes all warning letters
         sent under district directors' signatures, including those that underwent center review:




  4
     One exception to this statement is a requirement that when acting under the authority of the Radiation Control
for Health and Safety Act, FDA is required by law to provide a written notification to manufacturers when the
agency discovers products that fail to comply with a performance standard or that contain a radiation safety defect.
  5
      FDA Regulatory Procedures Manual, Chapter 10, Subchapter — Prior Notice.

Warning Letters--Trends and Perspectives                 7                                       OEI-09-97-00380
                                  District offices annually issue approximately
                                        80 percent of all warning letters

                        Year           Total    District office-issued        Center-issued
                        1994           1,626       1,282 (78.8%)              344 (21.2%)

                        1995           1,501       1,175 (78.3%)              326 (21.7%)
                        1996           1,037         841 (81.1%)              196 (18.9%)

                        1997           1,175       1,003 (85.4%)              172 (14.6%)

         In fiscal year 1997, FDA issued 1,175 warning letters. This reversed a trend during which

         the number of warning letters decreased 36.2 percent from 1994 (1,626) to 

         1996 (1,037). More warning letters are issued for devices and radiological products than

         for any of FDA's other product areas. In fact, from 1994 to 1997, the Center for Devices

         and Radiological Health issued more warning letters than any district office. The district

         offices issuing the most letters in 1997 were San Francisco (96), Florida (88), and Dallas

         (74). The district offices issuing the fewest warning letters in 1997 were Boston (16),

         Detroit (19), and Nashville (20).


         What does a warning letter say? The warning letter instructs the firm to correct the

         issues noted and to respond in writing within 15 days of receipt of the letter. District

         offices coordinate with the appropriate center to determine whether a firm's response to a

         warning letter is adequate. If the district or appropriate center deems the firm's response

         adequate, it will notify other appropriate agency units. This may require a reinspection of

         the firm.


         The FDA issues warning letters for regulatory violations, not for violations of

         nonregulatory guidance documents. It states that "the threshold for determination of what

         constitutes 'regulatory significance' is that failure to adequately and promptly achieve

         correction to the warning letter may be expected to result in enforcement action."


Subsequent Compliance Actions

         The FDA has both administrative and regulatory actions available to it to ensure
         compliance with the Food, Drug, and Cosmetic Act. Administrative actions include
         detentions, civil penalties, and requesting voluntary recalls. Regulatory actions include
         license revocations, license suspensions, citations, prosecutions, judicial civil penalties,
         injunctions, and seizures.6



         6
           FDA has recall authority only for infant formula, human tissue, and certain medical devices. Recalls of
other products are voluntary. License suspensions and revocations are regulatory actions taken for biologicals.

Warning Letters--Trends and Perspectives                8                                      OEI-09-97-00380
Related Work

         The General Accounting Office (GAO) issued two studies in 1997 that questioned the
         consistency of FDA's inspection and compliance activities:

            <	     In "Blood Supply: FDA Oversight and Remaining Issues of Safety"
                   (GAO/PEMD-97-1, February 1997), GAO found that FDA issued warning letters
                   to blood suppliers inconsistently. The GAO also reported that some inspections
                   yielded multiple FDA-483 observations but did not result in a warning letter, while
                   other inspections with relatively few or minor observations resulted in the issuance
                   of a warning letter.

            <	     In "FDA Mammography Inspections: While Some Problems Need Attention,
                   Facility Compliance Is Growing" (GAO/HEHS-97-25, January 1997),
                   GAO questioned the consistency of inspectors who used different criteria in citing
                   mammography facilities. The GAO stated that FDA's monitoring and enforcement
                   process did not ensure timely correction of deficiencies in these facilities. The
                   GAO also noted that FDA district offices needed better information systems to
                   manage inspections.

         Based on GAO’s concerns and the significant decrease in the number of warning letters
         issued from 1994 to 1996, we determined that this inspection was warranted.


METHODOLOGY

Interviews with FDA and Regulated Industry

         We conducted either in-person or telephone interviews with each district office. We asked
         district office staff about their organizational structure, their experiences with warning
         letters, the factors that contributed to their increase or decrease in warning letters, and the
         responsiveness of the centers to their warning letter recommendations. In addition, we
         analyzed district office inspection and warning letter trend data, reviewed FDA’s
         Regulatory Procedures Manual, and interviewed staff from FDA headquarters.

         We selected a simple random sample of 40 firms that received warning letters during fiscal
         year 1996 and completed telephone interviews with 24 of them. The remaining firms did
         not return phone calls or had gone out of business. We asked firms about the violations
         that resulted in the warning letter and their experiences with FDA.




Warning Letters--Trends and Perspectives             9                                 OEI-09-97-00380
This report is one of two reports on the FDA warning letter process. A companion report, “FDA
Warning Letters: Timeliness and Effectiveness” (OEI-09-97-00381), describes the results of our
on-site fieldwork at six FDA district offices where we conducted reviews of warning letter files
and FDA follow up. In that report, we found that warning letters are an effective compliance
tool. However, their effectiveness depends on committed follow-up attention by FDA. We also
found that their timeliness could be improved and numerous discrepancies exist between
headquarters and district office data.




Warning Letters--Trends and Perspectives      10                                OEI-09-97-00380
                                           FINDINGS

Changes in FDA policies and practices and better industry
compliance have contributed to decreases in warning letters
The FDA has fostered a more cooperative relationship with industry

         In recent years, FDA has implemented measures to ensure compliance with Federal laws
         and regulations by offering education and communication in lieu of warning letters. Many
         district offices now offer meetings to firms who receive FDA-483s. In addition, FDA
         recently revised its warning letter guidance to include the following instructions:

                   In sending the firm a warning letter, the warning letter should
                   appropriately acknowledge corrections promised during the inspection, or
                   annotated on the FDA-483, or provided to the district in a written
                   response.

         A meeting and/or FDA-483 response may be adequate to avoid a warning letter. In some
         district offices, a meeting and a firm’s promised corrections can result in a warning letter
         not being issued. In other district offices, the warning letter is issued regardless of the
         outcome of the meeting.

         District office and headquarters staff agree that all tools should be used to achieve
         compliance. Because of this viewpoint, FDA looks at its options with flexibility. Some
         district office staff acknowledge that, as they become more used to using the warning
         letter, they increasingly look at whether headquarters is prepared to take additional action
         based on a firm’s subsequent noncompliance. Because of the resources required to
         implement a civil or criminal proceeding, the answer is increasingly “no.” As a result,
         some district offices believe that working cooperatively with the firms is the most effective
         and timely solution.

         The FDA has implemented some recent policy changes to increase firm cooperation.
         These changes have contributed to the decrease in warning letters. Numerous changes in
         the Center for Devices and Radiological Health, for instance, have brought the industry
         and FDA closer in addressing compliance issues. For example, FDA now notifies medical
         device firms prior to arriving for inspections. This allows the firm to prepare the
         documentation that the investigator will request during the inspection. The FDA is
         currently considering extending this practice to other product areas and continues to
         develop new policies concerning medical device warning letters through its medical device
         Warning Letter Pilot.




Warning Letters--Trends and Perspectives          11                                 OEI-09-97-00380
District office reorganizations may contribute to the decrease

         Although several district officials believe that declining resources have contributed to the
         decrease in warning letters, FDA inspection data indicate that the number of inspections
         completed annually remained constant from FY 1994 to FY 1997. Some staff believe that
         district offices that moved from a “traditional” structure, with separate compliance and
         inspection branches, to a combined branch structure suffered a temporary or lasting loss of
         productivity. Slightly fewer than half of the district offices have combined their
         compliance and investigations branches.

         According to staff, the attrition of experienced staff, staff difficulty understanding new
         roles, time required to train staff for their new roles, and the failure of self-directed teams
         to function adequately resulted in a loss of productivity. We analyzed inspection and
         warning letter trends for district offices that had reorganized as well as those that had
         retained a traditional structure. As the following table illustrates, district offices that had
         reorganized in the past several years saw their inspection and warning letter numbers
         decrease at higher rates than those that retained a traditional structure:

                     “Reorganized” district offices have seen inspection and warning
                      letter numbers decline faster than “traditional” district offices

                 Structure                 Inspections, 1994-1997   Warning Letters, 1994-1997
                 Reorganized                    -6.9 percent               -32.0 percent

                 Traditional                    -0.6 percent               -15.8 percent

         Other factors may account for these differences. Offices that have reorganized may have
         implemented other changes that resulted in fewer warning letters. For example, the
         Kansas City district office has implemented a major educational effort that changes the
         traditional role of the compliance officer to an educator. In addition, other district offices
         that have reorganized appear to be focusing a great deal of attention on industry education
         and cooperation.

District offices conduct different types of inspections than in prior years

         According to district office staff, changes in inspection priorities and methods have
         contributed to the overall decrease in warning letters. Eight district offices and staff from
         FDA centers noted that the role of the district office has changed in recent years. In
         particular, the scope and type of inspections have changed:

           <	      More inspections are headquarters-directed. District offices conduct fewer
                   routine inspections based on their workplans. Instead, the centers frequently
                   undertake special initiatives that require that the district offices drop everything


Warning Letters--Trends and Perspectives                12                                 OEI-09-97-00380
                   else in order to inspect all industry-specific firms in their jurisdictions. Recent
                   examples include blood suppliers and mammography providers.

           <	      The FDA now conducts more premarket approval inspections, and they do not
                   result in warning letters. The FDA has attempted to streamline its product
                   approval process to speed up the introduction of new products into the
                   marketplace. This has included conducting an inspection prior to FDA granting
                   approval of a new product.

           <	      Inspections have become more technical and complicated. Because technology
                   has increased the sophistication of new products, the amount of time, work, and
                   expertise required to complete an inspection has increased dramatically.

           <	      Inspections have changed in scope. As the base of scientific knowledge increases,
                   FDA has focused on different issues when conducting inspections. For example,
                   district offices are focusing on microbiological issues rather than filth when
                   conducting food inspections. Whereas filth inspections could result in immediate
                   warning letter issuance, investigators now collect samples that FDA labs analyze.

           <	      Some district offices focus inspection resources on previously identified violative,
                   risky firms. Violations uncovered during inspections of these firms typically would
                   warrant a more serious compliance action than a warning letter.

One-third of district offices believe that firms are doing a better job of being in
compliance

         Firms dislike warning letters, which can be used by competitors to disparage their
         reputations. This is especially true in the pharmaceutical industry, where a warning letter
         may cost a firm millions of dollars in HMO contracts. As a result, district offices believe
         that the threat of a warning letter is strong motivation for firms to be in compliance.

         Several districts suggested that the age of a firm or of a regulation affects industry
         compliance. Newer firms with less experience may be unaware that certain practices
         violate FDA regulations. As these firms become more familiar with the rules governing
         their business, they are less likely to unknowingly commit warning letter infractions.
         Similarly, when industry becomes more accustomed to a regulation, violations are less
         likely to occur.




Warning Letters--Trends and Perspectives             13                                   OEI-09-97-00380
Despite the existence of clear warning letter guidance,
differences in district office attitudes, experience, and the
types of firms in the district affect warning letter volume
         The FDA’s warning letter data illustrate the wide variation in the number of warning
         letters issued by different district offices:

                           From 1994 to 1997, some district offices issued almost
                               five times as many warning letters as others

                     Most warning letters, 1994-97        Fewest warning letters, 1994-97
                    San Francisco          384              San Juan              82

                        Florida            320               Buffalo              96
                      New York             303               Detroit             104

         While the staff size of the district offices has an obvious effect on the number of
         inspections and warning letters, this is not the only factor affecting the extent to which
         warning letters are used. District offices vary in their philosophy and use of warning
         letters. Some district offices have adopted a collaborative problem-solving approach with
         industry. These districts have been more likely to use the FDA-483 to achieve
         compliance, take a firm’s FDA-483 response into consideration, or call the firm in for a
         meeting in lieu of issuing a warning letter. Other district offices, however, believe it is
         important to put a firm’s noncompliance on record by promptly issuing a warning letter,
         regardless of a firm’s FDA-483 response or desire for a meeting.

         While district offices believe that the compliance programs clearly delineate when
         violations meet warning letter thresholds, they also noted the extent to which the
         experience of investigators, supervisory investigators, and compliance officers figures into
         the determination. This occurs because these staff are well-acquainted with the
         compliance programs, have inspected similar firms multiple times, and are more
         comfortable making a close judgment call.

         The types of firms under a district’s jurisdiction play a major role in the number of warning
         letters issued by a district office:

           <	      Districts with large, highly technical industries: Inspections take longer to
                   complete and frequently are complicated because of the advanced technology
                   being used by these firms. In addition, these firms frequently have regulatory
                   affairs staff whose sole job is to ensure compliance with FDA. As a result, a long,
                   resource-intensive inspection may uncover no significant violations.


Warning Letters--Trends and Perspectives             14                                 OEI-09-97-00380
           <	      Districts saturated with smaller, less FDA-savvy firms: These firms often are not
                   used to dealing with a regulatory agency. They may be service industry firms (e.g.,
                   tanning salons) or firms that focus more on the distribution rather than the
                   production of goods (e.g., importers, warehousers). These firms frequently are
                   not well-acquainted with FDA regulations and do not have employees whose
                   primary responsibility is to ensure compliance with FDA. As a result, a short
                   inspection is often likely to expose violations. In addition, FDA routinely issues
                   warning letters to importers that fail to hold a shipment for FDA examination. This
                   tends to generate many warning letters in large import districts.

           <	      Center-driven industry-specific inspection efforts: Centers sometimes mandate
                   that district offices conduct industrywide inspections, such as recent efforts
                   focused on mammography establishments, blood banks, and seafood firms. These
                   can have periodic effects on warning letter trends. A district with heavy
                   concentrations of those industries may experience a temporary increase or
                   decrease in warning letters. For example, when FDA initiated a nationwide effort
                   to inspect mammography establishments, those districts with a large number of
                   these firms experienced a surge in warning letters. On the other hand, FDA’s
                   recent efforts to implement Hazard Analysis Critical Control Point regulations in
                   the seafood industry have focused on the education of firms. The Center for Food
                   Safety and Applied Nutrition has instructed district offices not to issue warning
                   letters during implementation of the regulations. As a result, districts with a high
                   concentration of seafood firms are generating few warning letters as they focus
                   their inspection resources on these firms.



Firms would like to better understand the warning letter
process and suggested some minor changes
FDA policies and procedures governing warning letters are unclear to firms

         The firms that received warning letters in 1996 are uncertain about what criteria 

         FDA uses to determine if a warning letter is necessary. These firms believe that the step

         from the FDA-483 to the warning letter was subjective. One firm that operates in more

         than one FDA district claimed that the same violations do not always receive consistent

         compliance action from FDA (e.g. a warning letter versus an FDA-483). Some firms

         believe that investigators interpret the regulations differently. More than one-half of the

         firms believe that their violations did not warrant a warning letter, while 38 percent agreed

         with FDA’s decision to issue a warning letter.


         Firms believe that FDA does not provide consistent and accessible guidance on what

         warrants a warning letter. Policy guidance publications exist, but they are not accessible




Warning Letters--Trends and Perspectives            15                                 OEI-09-97-00380
         to some firms, especially those that are smaller and less sophisticated. A firm official
         summarized the difficulties:

                   The industry is in the dark about changes in [FDA’s] procedures and
                   priorities. The FDA is not communicating procedure changes but is
                   writing up firms who violate the changes. For example, we were written
                   up for new training requirements that were never communicated to us in
                   the first place.

         Another firm with a similar viewpoint requested even more guidance from FDA, saying,
         “FDA should give suggestions on exactly how to comply with labeling regulations. A list
         of suggestions would be helpful.”

         Firms also do not understand the role of the investigator in the warning letter process.
         One firm believes that the investigator who conducted the inspection was not a part of the
         decision to issue a warning letter.

When possible, firms would appreciate advance notice that a warning letter will
be issued

         Some district offices warn firms that the district office is considering sending a warning
         letter or that they have sent a warning letter recommendation to FDA headquarters. Other
         district offices issue warning letters without prior notice.

         Firms claim that they would respond and comply more quickly if FDA consistently told
         them that a warning letter was imminent. Most firms (58 percent) did not expect to
         receive a warning letter. However, almost half of those that did not expect the warning
         letter received it for violations discovered through postinspection laboratory testing,
         making it impossible for FDA to alert the firm during the inspection.

         Firms suggested a variety of methods that FDA could use to prepare them for the warning
         letter. These include telephone calls, postcards, electronic mail and letters advising the
         firm that the warning letter is forthcoming. One-half of the firms responded to the
         FDA-483 in writing, including one firm that indicated an adequate response to the
         FDA-483 could preclude the issuance of a warning letter. The same firm conceded that
         certain violations will always “trigger” a warning letter and asked that FDA make more
         efforts to publicize those violations.




Warning Letters--Trends and Perspectives          16                                  OEI-09-97-00380
With some exceptions, firms were satisfied with FDA’s
customer service during the warning letter process
Firms generally viewed investigators as helpful and thorough, although some
firms questioned their objectivity

         The majority of firms who commented on the FDA investigator’s customer service had
         generally positive things to say. A total of sixteen firms reported on the investigators’
         customer service, and 10 were generally positive, 5 had negative things to say, and
         1 simply said that investigators “vary in candor and helpfulness.” Of those who reported a
         positive experience, investigators were most commonly described as “helpful” and
         “thorough.” One firm praised the investigators, saying “they made us a better
         organization.” Of the five firms that reported a negative experience with the investigators,
         three complained about what they perceived as an inordinate amount of time the
         investigator spent inspecting them.

Most firms perceived the district offices in a positive light; however, some
reported instances of staff apathy

         Three-quarters of the firms that contacted a district office had positive things to say about
         the office’s customer service. Sixty-seven percent of firms had contact with their district
         office following the issuance of the warning letter. Comments ranged from, “they were
         flexible in allowing us to choose the date for our second inspection,” to superlatives
         describing staff as “wonderful” and “excellent.” Three firms mentioned their district
         office was particularly helpful during the warning letter process. Those firms accepted
         FDA’s assistance in drafting letters of recall or resolving a credentialing problem with the
         State.

         While most firms who contacted their district office found the experience positive, the
         remaining 25 percent of firms had negative experiences. The three firms that complained
         about their district office mentioned difficulty reaching staff, delays in approval of
         imported foods, unhelpful and impolite staff, and either too few employees or employees
         who “just don’t care.”

Few firms contacted FDA headquarters, and customer service reviews were
mixed

         Few firms had contact with FDA headquarters. Four firms (17 percent) contacted
         headquarters during the warning letter process. Two firms reported positive experiences,
         and two firms reported negative experiences. One satisfied firm mentioned that they were
         “able to get to the right people” and another firm said the FDA headquarters staff were
         “great, they followed up well.” Comments from the two firms that had negative
         experiences included, “We could get no clear answers,” to their questions regarding tissue

Warning Letters--Trends and Perspectives          17                                  OEI-09-97-00380
         sampling and “we got no response to our request to speed up the process of approving
         imported foods, especially holiday-related foods.”




Warning Letters--Trends and Perspectives        18                               OEI-09-97-00380
                              RECOMMENDATION

         The warning letter is an effective tool to achieve compliance with Federal laws and
         regulations. In our companion report, we recommend that FDA improve the timeliness of
         the warning letter process and follow-up activities and revamp its warning letter data
         collection system to ensure accuracy.

         Based on the findings in this report, we believe that FDA also should implement some
         minor improvements to increase fairness among district offices and improve flexibility.
         Specifically, FDA should:

           <       continue to improve relations and communication with industry and

           <	      consider issuing guidance that would authorize district offices to use FDA-483s
                   and meetings to achieve compliance in lieu of warning letters.

         District offices vary significantly in (1) experience, (2) how they view the warning letter,
         and (3) their relationships with industry. As a result, there is a significant difference in
         how district offices handle inspection violations. While FDA has accepted this variation in
         the past, the move that some district offices have made toward using FDA-483s and
         meetings in lieu of warning letters has focused attention on these variations.

         We believe that FDA’s move towards better communication and collaboration with
         industry is appropriate, in light of the National Performance Review and the findings
         presented in this report. Further development of these relationships is important in
         preserving fairness. A firm should not suffer adverse consequences solely because it is
         located in a different district than another firm.

         At the same time, we recognize the need to allow district offices considerable discretion.
         Developing guidance on alternatives to the warning letter will allow them to pursue other
         means of achieving compliance.

         We received comments on the draft report from FDA in which the agency concurred with
         our recommendation. Where appropriate, we have made revisions in the report in
         response to these comments. We also have responded to several of FDA’s comments in
         the appendix.




Warning Letters--Trends and Perspectives          19                                OEI-09-97-00380
                                             APPENDIX A


                                           AGENCY COMMENTS





Warning Letters--Trends and Perspectives          20          OEI-09-97-00380
Warning Letters--Trends and Perspectives   21   OEI-09-97-00380
Warning Letters--Trends and Perspectives   22   OEI-09-97-00380
Warning Letters--Trends and Perspectives   23   OEI-09-97-00380
Warning Letters--Trends and Perspectives   24   OEI-09-97-00380
                                           APPENDIX B


                         OIG RESPONSE TO AGENCY COMMENTS

         We offer the following additional analysis based on FDA’s concerns.

         At the time that this inspection began, there were six regional offices and 21 district
         offices as we stated in the draft report. The Mid-Atlantic and Midwest regional offices
         have since merged into the Central regional office, and the Buffalo district office has
         merged with the Brooklyn district office.

         The seafood industry was the only industry in our sample that has a seasonal component.
         Analysis of the firms in our sample that market seafood shows that either there was no
         follow-up inspection conducted (most often because it was a “failure-to-hold” violation)
         or that reinspection was actually more timely than the average. Hence, reinspection delays
         resulting from the seasonal nature of the industry had either no effect or a diminishing
         effect on the 278-day average that we reported.

         We do not intend to place any value judgments on the number of warning letters produced
         by a district. Our purpose in identifying these extremes is merely to indicate the wide
         variation in warning letter production that exists among the districts.

         Analysis of FDA data indicates that while both the numbers of inspections and warning
         letters decreased from 1994 to 1997 (the range used for our statements in the reports),
         inspections decreased by 3.6 percent while warning letters fell 39 percent. In other terms,
         in 1994, about 9.1 inspections conducted yielded 1 warning letter. In 1997, the rate was
         12.2 inspections per warning letter.

         We agree that the prevalence of importers in a district could contribute to the variation in
         number of warning letters issued and have clarified their importance in this report.

         The FDA’s opinion that firms will voluntarily correct violations is highlighted in the
         background section of this report.

         Several districts indicated that increased familiarity with FDA regulations leads to better
         industry compliance. We have clarified this point in this report.

         Our recommendation was not intended to discourage the use of warning letters, but rather
         to encourage FDA to issue guidance which would allow a district office to select the tools
         it feels are most effective in achieving compliance in a given situation.



Warning Letters--Trends and Perspectives          25                                  OEI-09-97-00380
         The medical device Warning Letter Pilot will allow FDA to use a firm’s response to an
         FDA-483 or an untitled letter to preempt a warning letter for certain segments of the
         device industry. More information can be found on FDA’s website or the Federal Register
         for August 27, 1998.

         With respect to FDA’s comment on “Page 11, last paragraph after table” of the
         companion draft report entitled FDA Warning Letters: Timeliness and Effectiveness
         (the table and paragraph now appear on page 12), we note that the paragraph below the
         pie chart on page 13 shows that despite the discovery of repeat or new violations on
         reinspection, the warning letter was still effective. As stated there, investigators believed
         that the violations found on reinspection were minor and that firms had made satisfactory
         progress towards compliance.




Warning Letters--Trends and Perspectives           26                                 OEI-09-97-00380
